DOE F 1325.8
(08-93)
United States Government                                                           Department of Energy


Memorandum
        DATE:    September 8, 2010                                     Audit Report Number: OAS-L-10-10
    REPLY TO
     ATTN OF:    IG-321 (A09AL040)
     SUBJECT:    Report on "The Audit of Precious Metals at NNSA Sites"
           TO:   Associate Administrator for Infrastructure and Environment, NA-50
                 Senior Procurement Executive, NA-63

                 INTRODUCTION AND OBJECTIVE

                 The National Nuclear Security Administration (NNSA), a semi-autonomous organization
                 within the Department of Energy (Department), uses precious metals, such as gold, silver,
                 and platinum at its National Laboratories and production sites for research and
                 development and to construct weapon components. Due to their value, Federal
                 Regulation 41 CFR 109-27.51 (Regulation), Management of Precious Metals, requires
                 Department organizations and contractors to establish effective procedures and practices
                 for their administrative and physical control. Sites are also required to conduct annual
                 reviews of precious metals holdings to determine if the quantities on-hand are in excess
                 of program requirements, and if so, return the excess to the Department's precious metals
                 pool for recycling. The Business Center for Precious Metals Sales and Recovery
                 (Business Center), located in Oak Ridge, Tennessee, operates the Department's precious
                 metals pool. The Regulation also requires that precious metals custodians provide
                 justifications for further retention of idle metals and that the justifications be approved by
                 the custodian's supervisor.

                 Historically, the Business Center sent precious metals that were radiologically
                 contaminated to a refiner to be decontaminated and recycled for use by the sites.
                 However, in July 2000, a previous Secretary of Energy (Secretary) suspended the release
                 of scrap metals, including precious metals, from radiological areas within Department
                 facilities for recycling. The suspension applies to precious metals regardless of the
                 contamination level of the metals.

                 The objective of this audit was to determine whether NNSA sites had effectively and
                 efficiently managed precious metal resources. To accomplish our objective, we reviewed
                 the management of precious metals during Fiscal Years (FY) 2008 and 2009 at NNSA's
                 Y-12 National Security Complex (Y-12) and Lawrence Livermore National Laboratory
                 (Livermore).

                 CONCLUSIONS AND OBSERVATIONS

                 The controls we examined at the NNSA sites we visited provided reasonable assurance
                 that precious metals were adequately accounted for and safeguarded. We performed
inventories of Y-12's and Livermore's precious metals holdings and were able to account
for their precious metals to within one percent of their recorded inventory. The
difference was attributable to rounding. However, we noted that the sites did not always
efficiently manage their precious metal resources. Specifically:

          Y-12 and Livermore did not always identify idle and excess precious metals;
          holding approximately $848,000 of uncontaminated idle1 and excess precious
          metals, some for as long as 40 years without appropriate justifications; and,

          Y-12 disposed of, as waste, $1.2 million of contaminated precious metals held
          under the Secretary's July 2000 suspension that could have been held for future
          decontamination and recycling.

                                   Idle and Excess Precious Metals

Our reviews at Y-12 and Livermore found that both sites were not adequately identifying
idle and excess precious metals that should have been sent to the Business Center for
recycling. Specifically, Y-12 possessed 78,761 grams of precious metals that had been
idle for at least five years. These metals, which included gold, platinum, and silver, had a
market value of $93,305 as of January 2010. For example, our review identified precious
metals with a market value of $14,637 that, according to the custodian, had been idle for
at least 17 years. At Livermore, we identified 45,086 grams of precious metals with a
market value of $754,531 as of January 2010 that had not been used for at least five
years. The metals were stored in containers with Tamper Indicated Device (TID) seals.
Livermore places TID seals on inventory items that precious metals custodians do not
intend to use for an unknown period of time. For example, one Livermore custodian had
precious metals with a market value of $1,048 that had not been used after more than 40
years of storage. The metals were in the original packaging with TID seals dated as early
as 1965.

Y-12 and Livermore did not perform required annual reviews of the quantity on hand to
determine if any precious metals were in excess of program requirements. In addition,
management could not provide any justifications or management approvals for retaining
idle and excess precious metals, as required by the Regulation. At Livermore, we found
that its precious metals policy did not comply with the Regulation. Specifically,
Livermore's policy is discretionary, in that it states that justifications and management
approvals for retaining idle and excess metals may be required; whereas the Regulation
states it shall be required. At Y-12, a program official commented that the precious
metals control officer position was downgraded to a part-time position and; therefore, the
site had not fully implemented the Regulation by performing what the site viewed as
procedural requirements. During our review, Y-12 recognized the need for obtaining
justifications and management approvals. The precious metals control officer
subsequently provided an example of the site obtaining such justifications in FY 2010.


1
  The Federal regulations for precious metals do not define idle; therefore, we used a period of five years of
inactivity as an indication of materials being idle.


                                             2
The issue of not identifying excess quantities of precious metals on hand has been a long
standing problem. A prior Office of Inspector General report, Audit of the Department of
Energy's Management of Precious Metals (DOE/IG-0375, June 1995), concluded that
Departmental organizations were not adequately identifying and disposing of excess
precious metals. The report recommended that organizations ensure that required annual
reviews are conducted to determine excess quantities of precious metals on hand. In
response, management stated that it would re-emphasize the mandatory performance of
annual reviews determining excess amounts of precious metals while requiring all excess
metals to be immediately returned to the precious metals pool.

By retaining idle precious metals that could be used to meet other sites' needs, NNSA
could incur unnecessary costs related to purchasing additional precious metals instead of
recycling what is already on hand. For example, the Business Center informed one
NNSA site that it would only be able to provide a portion of the 4,050 grams of platinum
requested in the site's FY 2010 estimated forecast. Our review identified a total of 6,223
grams of platinum that has been idle for at least five years at Y-12 and Livermore, which
potentially could have been returned to the Business Center and used to help meet the
other site's needs.

As a result of our audit, a Livermore Site Office Contracting Officer acknowledged that
the current Livermore policy is in conflict with the Regulation and needs to be revised to
reflect the required justifications and management approvals. In addition, Y-12 issued a
request on July 29, 2010, to its precious metals custodians, asking for idle
uncontaminated metals to be specifically identified and listed for disposition. This action
is expected to be completed by the end of FY 2010.

                        Disposal of Contaminated Precious Metals

Our review at Y-12 disclosed that the site had disposed as waste, $1.2 million of
contaminated precious metals encumbered by the then Secretary's July 2000 suspension
that, according to NNSA, could have been processed through decontamination and
refining to satisfy new mission requirements. Prior to the suspension in 2000, Y-12
planned to send these contaminated precious metals to a refiner for decontamination and
recycling. After 2000, the site made several unsuccessful attempts to reuse the precious
metals while maintaining compliance with the policy, including transferring them to
another program or Department site for reuse. Finally, in 2008, Y-12 disposed of 24,565
grams of precious metals with a market value of $1.2 million. According to an NNSA
official, there are currently only two options available for the disposition of precious
metals taken from a radiological area – storage or disposal as waste. In response to a July
2008 NNSA data call, Y-12 and Livermore reported that they had accumulated
approximately 1,113,425 grams of precious metals which are restricted from being
recycled due to the July 2000 suspension on the release of scrap metals, including
precious metals, from radiological areas within Department facilities. We determined
that the market value for these metals, as of January 2010, was approximately $23.2
million.




                                     3
NNSA had not established comprehensive guidance to help sites determine whether
radiologically contaminated precious metals should be held for decontamination and
recycling, or disposed of as waste. As a result, sites were on their own to determine a
course of action related to precious metals held by the suspension. To its credit, in May
2010, NNSA issued an evaluation report on Radiological Clearance of Scrap and
Personal Property at NNSA Sites. The report concluded that the lack of progress in
resolving the suspension issues has led to large accumulations of inventories of
radiologically clean, but policy encumbered materials at sites. The report further stated
that management of these inventories as waste is a significant unbudgeted expense for the
sites and is contradictory to Departmental waste minimization and pollution prevention
efforts. Further, according to Y-12 management, it has suspended all disposal activities
associated with contaminated precious metals in order to develop a process that will
address the disposition of contaminated precious metals.

According to management officials, as of July 2010, NNSA was in the process of drafting
an action memorandum for senior Department officials that will include the May 2010
evaluation report and propose alternative courses of actions regarding management of
scrap metals, including precious metals, covered by the suspension.

SUGGESTED ACTIONS

As previously discussed, NNSA's investment in precious metals is significant and is
likely to increase in the future. NNSA could potentially recover significant amounts of
additional precious metals when it dismantles retired weapons. According to the
Department, as of September 30, 2009, several thousand nuclear weapons were retired
and awaiting dismantlement. For example, according to an NNSA official, one pending
project has the potential to yield over $30 million in precious metals. Without efficient
management of precious metal inventories, NNSA is at increased risk of incurring
unnecessary costs by purchasing precious metals when sufficient quantities already exist
in inventories, and by prematurely disposing of metals that could be recycled in the
future.

Because of the high market value of precious metals, we suggest that the Associate
Administrator for Infrastructure and Environment, NNSA, develop guidance for NNSA
site offices to follow in determining whether to store or dispose of precious metals held
under the Secretary's July 2000 suspension.

We further suggest that the Senior Procurement Executive, NNSA, direct NNSA site
offices to enforce requirements for conducting annual reviews to determine idle and
excess quantities on hand and obtaining justifications and management approval for the
retention of precious metals.




                                     4
Since no recommendations are being made in this report, a formal response is not
required. We appreciated the cooperation of your staff during the conduct of this review.




                                    David Sedillo, Director
                                    NNSA and Science Audits Division
                                    Office of Inspector General

Attachment

cc:   Director, Office of Internal Controls, NA-66
      Director, Office of Risk Management, CF-80
      Team Leader, Office of Risk Management, CF-80
      Audit Resolution Specialist, Office of Risk Management, CF-80




                                    5
                                                                                      Attachment


SCOPE AND METHODOLOGY

We performed the audit between September 2009 and August 2010 at the National Nuclear
Security Administration (NNSA) Service Center, located in Albuquerque, New Mexico;
Lawrence Livermore National Laboratory (Livermore), located in Livermore, California; and,
the Y-12 National Security Complex (Y-12), in Oak Ridge, Tennessee. Our review covered
precious metals held in inventory during Fiscal Years 2008 and 2009.

To accomplish the audit objective, we:

        Interviewed personnel from NNSA Headquarters, the NNSA Service Center, Livermore,
        the Livermore Site Office, Y-12, and Y-12 Site Office;

        Reviewed applicable federal laws and internal policies and procedures relevant to the
        management of precious metals;

        Reviewed prior audits, inspections, and internal assessments related to the audit
        objective;

        Judgmentally and statistically selected precious metals from the available inventory at
        Livermore using U.S. Army Audit Agency Statistical Sampling System;

        Performed inventories of selected precious metals custodians at Livermore; and,

        Performed a 100 percent inventory of Y-12's precious metals.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. The audit included tests of internal
controls and compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Because our review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our audit. We also reviewed
performance measures in accordance with the Government Performance and Results Act of 1993
relevant to accountability of precious metals. We found that Livermore and Y-12 did not have
performance measures specifically relating to the administrative and physical control of precious
metals. We did not rely on computer-processed data to satisfy our audit objective.

Management waived an exit conference.




                                                6
                                                                    IG Report No. OAS-L-10-10

                                  CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 586-7013.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
